 DEPARTMENT OF HOMELAND SECURITY

 Ofﬁce of Inspector General



    IMPROVEMENTS NEEDED TO DHS’
      INFORMATION TECHNOLOGY
       MANAGEMENT STRUCTURE




 Ofﬁce of Information Technology
OIG-04-30               July 2004
                                                                      Ofﬁce of Inspector General

                                                                      U.S. Department of Homeland Security
                                                                      Washington, DC 20528




                                              Preface

The Department of Homeland Security (DHS) Ofﬁce of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, investigative, and special reports
prepared by the OIG as part of its DHS oversight responsibility to identify and prevent fraud,
waste, abuse, and mismanagement.

This report assesses the strengths and weaknesses of the program or operation under review. It
is based on interviews with employees and ofﬁcials of relevant agencies and institutions, direct
observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to the OIG,
and have been discussed in draft with those responsible for implementation. It is my hope that
this report will result in more effective, efﬁcient, and economical operations. I express my
appreciation to all of those who contributed to the preparation of this report.




                                              Clark Kent Ervin
                                              Inspector General
                                                                                                                          Contents

  Introduction ..................................................................................................................................... 3

  Results in Brief .............................................................................................................................. 3

  Background .................................................................................................................................... 4

  Findings… ...................................................................................................................................... 5

          CIO Faces Major IT Management Challenges ..................................................................... 5

          CIO Organizational Structure is Not Optimal ...................................................................... 7

          CIO Does Not Manage IT Department-wide ...................................................................... 13

          Opportunities Exist for CIO Management Structure Improvements .................................. 20

  Recommendations… .................................................................................................................... 27

  Management Comments and OIG Evaluation… ......................................................................... 28

Appendices

  Appendix A:             Purpose, Scope, and Methodology ..................................................................... 31
  Appendix B:             Management Comments ..................................................................................... 33
  Appendix C:             Major Contributors to This Report .......................................................................36
  Appendix D:             Report Distribution ............................................................................................. 37

Abbreviations

  ACE                   Automated Commercial Environment
  CIO                   Chief Information Ofﬁcer
  DHS                   Department of Homeland Security
  EAB                   Enterprise Architecture Board
  eMerge2               Electronically Managing Enterprise Resources for Government Effectiveness &
                        Efﬁciency
  Energy                Department of Energy
  FDIC                  Federal Deposit Insurance Corporation



                Improvements Needed to DHS’ Information Technology Management Structure                                                           Page 1
Contents

   FISMA      Federal Information Security Management Act
   IRB        Investment Review Board
   IRP        investment review process
   IT         information technology
   OIG        Ofﬁce of Inspector General
   US-VISIT   U.S. Visitor and Immigrant Status Immigrant Status Indicator Technology
   VA         Veterans Administration


Figures

   Figure 1   DHS Organization Structure ....................................................................................9

   Figure 2   Overview of DHS’ Investment Review Process ....................................................15




Tables

   Table 1    Comparison of DHS and Leading CIO Organizations ..........................................21




Page 2                    Improvements Needed to DHS’ Information Technology Management Structure
OIG
Department of Homeland Security
Ofﬁce of Inspector General


    Introduction
                                  In today’s environment, the effective management of information technology (IT)
                                  is not only critical to federal agency success, it is required by law. The Clinger-
                                  Cohen Act of 1996,1 one in a series of key IT laws and executive guidance,
                                  requires that federal departments and agencies establish chief information ofﬁcers
                                  (CIOs) to institute, guide, and oversee frameworks for managing IT systems and
                                  initiatives as strategic investments. Newly established in March 2003, DHS faces
                                  the combined challenge of positioning a CIO to comply with federal IT guidelines
                                  and bring the department together technologically to accomplish mission
                                  objectives and meet performance goals.

    Results in Brief
                                  The DHS CIO has a signiﬁcant role to play in guiding IT resources and
                                  capabilities to fulﬁll the department’s diverse missions. The enormous task of
                                  creating one network and one infrastructure to ensure IT connectivity among the
                                  department’s 22 legacy organizations is daunting. In this context, some of the
                                  CIO’s challenges are to implement an enterprise architecture; standardize and
                                  integrate the department’s many duplicative systems and tools; and institute a
                                  program to address the risks and vulnerabilities facing DHS’ IT systems.

                                  Despite these key responsibilities, the CIO is not a member of the senior
                                  management team with authority to strategically manage department-wide
                                  technology assets and programs. There is no formal reporting relationship
                                  between the DHS CIO and the CIOs of major component organizations, which
                                  hinders department-wide support for his central IT direction. Further, the CIO
                                  has limited staff resources to assist in carrying out the planning, policy formation,
                                  and other IT management activities needed to support departmental units. These
                                  deﬁciencies in the IT organizational structure are exempliﬁed by the CIO’s lack
                                  of oversight and control of all DHS’ IT investment decision-making. Instead,



    1
        Also known as the Information Technology Management Reform Act, Div E, P.L 104-106



                      Improvements Needed to DHS’ Information Technology Management Structure                    Page 3
                            there is a reliance on cooperation and coordination within DHS’ CIO Council2 to
                            accomplish department-wide IT integration and consolidation objectives.

                            The Department of Homeland Security would beneﬁt from following the
                            successful examples of other federal agencies in positioning their CIOs to meet
                            federal guidelines. Speciﬁcally, repositioning the CIO to report to the Ofﬁce
                            of the Deputy Secretary would provide this ofﬁcial the authority and inﬂuence
                            needed to guide executive decisions concerning department-wide IT investments
                            and strategies. Having component-level CIOs report to both the DHS CIO and
                            their respective agency heads would help ensure commitment to consolidating the
                            IT infrastructure while also meeting business needs. Further, with adequate IT
                            ofﬁce support and control of all DHS IT investment decision-making processes,
                            the CIO can better ensure successful accomplishment of IT objectives, programs,
                            and initiatives.

Background
                            DHS relies on a variety of IT systems and technologies to support its wide-
                            ranging missions, including counter terrorism, border security, and infrastructure
                            protection. Advanced technologies and IT services are fundamental to support
                            internal operations and to ensure the systems integration and information sharing
                            needed to help protect the homeland in the wake of the September 11, 2001,
                            attacks. DHS’ IT budget in FY 2004 was about $4 billion−the third largest
                            IT investment budget in the federal government−including operations and
                            maintenance costs. Effective and strategic management is the key to maximizing
                            the potential of these technology investments.

                            Taken together, a series of laws and related guidance provide a management
                            framework for the new department to follow as it evolves and applies IT to
                            meet its mission needs. The Paperwork Reduction Act of 1995,3 designates
                            senior information resources management positions in major departments
                            and agencies with responsibility for applying technology to help reduce the
                            government’s information collection burden. The Clinger-Cohen Act of 1996
                            renames and elevates the former senior information resources manager positions
                            to executive-level CIOs, who report directly to their agency heads and have IT

2
  The DHS CIO Council is comprised of the CIOs from each DHS component, ex ofﬁcio representatives from General Counsel, the Chief
Financial Ofﬁcer’s Council, the Ofﬁce of the CIO, and the Executive Procurement Executive Council. The CIO Council was chartered to
develop, promulgate, implement, and manage a vision and direction for information resources and telecommunications management within
DHS.
3
  Public Law 104-13.



Page 4                             Improvements Needed to DHS’ Information Technology Management Structure
                                as a primary responsibility. Further, Ofﬁce of Management and Budget Circular
                                A-130−Appendix III−implements the Clinger-Cohen Act by establishing speciﬁc
                                policies and procedures for effective IT management. Additionally, the strategies
                                and practices of successful federal agencies provide useful examples and lessons
                                learned that DHS may consider and apply in structuring itself to manage IT
                                effectively.

       FINDINGS

       CIO Faces Major IT Management Challenges
                                The responsibilities of the DHS CIO, as set forth in the Homeland Security Act
                                of 2002,4 cover a variety of functions, including IT planning; budgeting and
                                ﬁnancial management; infrastructure management; systems development; IT
                                human capital; and, support services such as the IT customer help desk. A deputy
                                CIO helps provide enterprise-wide IT support in carrying out these functions.
                                The deputy CIO is responsible for directing information management support
                                processes, and combining IT and telecommunications to provide coordinated
                                capabilities to meet DHS’ information needs. The deputy CIO also is responsible
                                for research, development, acquisition, and testing of new technologies to support
                                DHS mission needs. In addition, the CIO has six acting directors who report to
                                him in the following functional areas: applied technology, information security,
                                infrastructure, information and application delivery, planning and enterprise
                                architecture, and business support.

                                These ofﬁcials, along with the CIO, face the highly complex challenge of
                                managing IT in what constitutes the largest federal department reorganization
                                in 50 years. Since the department’s inception, the CIO has undertaken several
                                initiatives to provide some degree of connectivity among the department’s 22
                                legacy agencies, including linking e-mail systems and providing access to a
                                shared online intranet portal. However, the larger tasks of identifying department-
                                wide IT assets and creating a consolidated and secure IT infrastructure have yet to
                                be accomplished. All are expected to achieve signiﬁcant IT efﬁciencies and cost
                                savings.

                                Creating a single infrastructure for effective communications and information
                                from the disparate networks of its transferred agencies is the most important
                                task facing DHS. To support this effort, the CIO has established an Enterprise

4
    Title VII, P.L. 107-296, as amended by P.L. 108-107.


                   Improvements Needed to DHS’ Information Technology Management Structure                  Page 5
                               Infrastructure Board that meets periodically to discuss strategies for connecting
                               these local, metropolitan, and wide area networks. The Enterprise Infrastructure
                               Board is comprised of project teams such as the Network Security Board, which is
                               tasked with implementing an initiative to institute the ﬁrewalls, routers, switches,
                               and other technologies needed to secure DHS networks. For example, DHS is
                               enhancing the Immigration and Customs Enforcement’s telecommunications
                               “backbone” to create the department-wide network, which will establish data
                               communications with common policies and technical standards among all of its
                               organizational elements.

                               Further, the CIO has a key role to play in working with line managers to design
                               and manage an enterprise architecture to guide management of information and
                               technology in the department to help accomplish its many diverse missions. The
                               CIO released the ﬁrst version of the DHS enterprise architecture in September
                               2003, and is now working to align its transition strategy with several large
                               projects in the department such as the Automated Commercial Environment
                               (ACE) and the U.S. Visitor and Immigrant Status Indicator Technology (US-
                               VISIT). Work is currently underway to complete a second version of the
                               enterprise architecture and make the transition strategy more detailed and easier to
                               implement.

                               Another challenge to the CIO is to consolidate the disparate networks, data
                               centers, and systems of the legacy agencies. For example, over 100 redundant and
                               nonintegrated systems are used to support a variety of administrative activities
                               such as accounting, acquisition, budgeting, and procurement. Because of the
                               lack of standardization and interoperability in the current environment, many of
                               these activities are tedious and burdensome. To integrate these systems, DHS has
                               established the “eMerge2” program,5 scheduled for implementation by September
                               2006. Further, DHS has responsibility for implementing at least 8 of the top 25 IT
                               projects of civilian federal agencies. Along with eMerge2, these projects include
                               ACE, US-VISIT, the Integrated Wireless Network, and the Rescue 21 maritime
                               communications system. The CIO has a major role to play in helping ensure
                               that these systems are acquired and implemented to meet expectations of the
                               component sponsors.

                               Additionally, to meet requirements of the Federal Information Security
                               Management Act (FISMA), the CIO is charged with implementing an information
                               security management program that addresses the risks and vulnerabilities facing


5
    Electronically Managing Enterprise Resources for Government Effectiveness and Efﬁciency.



Page 6                                Improvements Needed to DHS’ Information Technology Management Structure
                           DHS’ IT systems. As part of its 2003 FISMA evaluation,6 the OIG reported that
                           none of the DHS components had fully functioning IT security programs; and,
                           there were a number of key areas including systems security risk assessment,
                           planning, testing, and certiﬁcation and accreditation that required management
                           attention. The OIG recommended that the CIO designate information security a
                           material weakness at DHS. Presently, the CIO is reﬁning and updating IT security
                           plans, policies, and procedures and has implemented an automated software tool
                           to conduct self-assessments to better manage systems security.

    CIO Organizational Structure
    Is Not Optimal
                           Despite federal laws and guidance on establishing effective IT organizations, the
                           DHS CIO is not well positioned to meet the department’s IT challenges. With
                           limited resources to carry out his responsibilities, the CIO lacks the authority and
                           the relationships with DHS executive, line, and IT managers across department
                           components to guide them in applying technology to accomplish the department’s
                           missions. While the decisions on structuring and stafﬁng the CIO organization
                           were well intentioned, they have not provided the CIO a sound basis from which
                           to pursue the goals of “one network, one infrastructure, one DHS.” At this
                           critical juncture in the department’s evolution, the CIO would beneﬁt from a more
                           centralized IT management structure and additional staff support to help govern
                           shared IT programs and services as well as to help better direct the components’
                           mission and supporting technologies in a concerted manner.

                           CIO is Not Well Positioned to Guide IT Department-wide

                           Federal laws and regulations recognize the importance of IT to agency missions
                           and emphasize the need for a centrally positioned, senior level proponent who
                           is responsible for strategically managing technology assets and programs across
                           the agency. Accordingly, federal guidelines require that each executive agency
                           position a CIO as a member of the senior executive team with the accountability
                           and responsibility to manage IT across organizational units. The CIO should
                           report to the agency head, providing advice and assistance to this ofﬁcial on
                           how best to implement and manage IT to improve productivity, efﬁciency, and
                           effectiveness. Additionally, the CIO is to serve as a bridge between senior
                           executives, line managers, and technical professionals to ensure that IT strategies

6
 Information Technology: DHS Information Security Program Evaluation, FY2003, Ofﬁce of Information Technology, Ofﬁce of Inspector
General, Department of Homeland Security, OIG-IT-03-02, September 2003.


                Improvements Needed to DHS’ Information Technology Management Structure                                   Page 7
         are communicated effectively and implemented department-wide. Where more
         than one CIO or senior IT ofﬁcial is designated, the respective duties of the
         ofﬁcials must be clearly delineated.

                DHS CIO is Not a Member of the Senior Management Team

         The DHS CIO is not positioned effectively within the department’s hierarchy
         to meet these requirements. The CIO, who does not report to the Secretary or
         the Deputy Secretary, is not a member of the department’s senior executive
         management team. He does not serve as a peer to the DHS Under Secretaries or
         component directors, nor does he have the opportunity to discuss department-wide
         IT issues, such as IT planning, investment management, or budgeting, or have the
         power and inﬂuence to guide IT initiatives within DHS components.

         Rather, the CIO reports to the Under Secretary for Management, one of the
         department’s major components. The CIO is a peer to other operational
         ofﬁcers−such as the chief ﬁnancial ofﬁcer, the chief human capital ofﬁcer, and
         the chief procurement ofﬁcer−and competes with these ofﬁcials for resources
         to carry out his speciﬁc responsibilities. Together, these ofﬁcials meet with the
         Under Secretary on a bi-weekly basis to discuss and coordinate activities within
         their respective ofﬁces. In this forum, they can elevate unresolved issues among
         their various ofﬁces to senior management attention. They can also learn second
         hand about issues discussed at more senior executive levels within the department
         and their role in helping to accomplish department-wide program goals. Because
         there is no forum to routinely and directly raise IT issues with the DHS Secretary,
         the DHS CIO must appeal through the Under Secretary for Management for
         support. Also, the activities and budgets of the CIO are subject to approval by the
         Under Secretary for Management.

         At this subordinate level, the CIO has no authority over the more senior
         component directors that he is supposed to be overseeing in terms of IT. The
         CIO must rely on informal channels, rather than the ofﬁcial reporting structure, to
         accomplish IT objectives. For example, according to DHS IT ofﬁcials, the CIO
         leverages his working relationships with former IT staff who have transferred to
         various directorates to promote IT shared services objectives and build working
         relationships with component line managers.




Page 8        Improvements Needed to DHS’ Information Technology Management Structure
                  Component CIOs Not Linked to DHS CIO

          There is no documented, formal reporting relationship between the DHS CIO
          and the CIOs of the major DHS component organizations. Ofﬁcially, these
          CIOs report to their directorate managers−but not to the DHS CIO. As such, the
          DHS CIO does not have the power or inﬂuence to guide IT initiatives across the
          department. Figure 1 provides a DHS organization chart depicting these CIO
          relationships.

          Figure 1: DHS Organization Structure




          There is no written policy to indicate the DHS CIO’s role towards the component
          CIOs or their IT infrastructures. Policies to deﬁne and communicate these roles
          and responsibilities of the component level CIOs and their technical staff vis-
          à-vis the DHS CIO do not exist. For example, the majority of DHS network
          administrators do not report through a chain of command that links to the
          DHS CIO. Although the DHS CIO is responsible for management of the IT



Improvements Needed to DHS’ Information Technology Management Structure             Page 9
          infrastructure, he does not have any administrative or technical control over the
          components’ disparate networks.

          Further, in some instances, the directorates do not involve or apprise the DHS
          CIO of their individual IT projects or initiatives. Component IT managers and
          their staff might be required to support their respective directorates on initiatives
          that may directly contradict or interfere with initiatives of the DHS CIO. For
          example, leadership in some directorates is resistant to the idea of transferring any
          of their IT infrastructure to the control of the CIO, with the belief that, if anything
          were to go wrong in support of their missions, they, not the DHS CIO, would
          be held accountable. Department-wide support and buy-in will be critical if the
          CIO is to achieve the objective of “one network, one infrastructure” by December
          2005.

          CIO Staff Resources Are Inadequate

          Despite his wide-ranging responsibilities for consolidating DHS’ IT infrastructure,
          the CIO has a small staff consisting of IT and systems security specialists and IT
          policy, planning, management, and budget analysts, to support him. Across the
          six functional areas, the CIO only has been authorized to hire about 65 employees
          to support a department of over 180,000 employees. As of May 2004, only 49 of
          these positions were ﬁlled. Ofﬁcials throughout the department have expressed
          concern that this is an inadequate number of staff to meet the many challenges in
          providing IT support services and consolidating technology systems, facilities,
          and initiatives across 22 different components in the new department.

          The CIO has relied upon detailees from other component organizations as
          well as contractors to help satisfy the large amount of work that remains to be
          accomplished. For example, two of the directors in the ofﬁce of the CIO are on
          loan from other organizations. Further, a CIO working group formed to develop
          the ﬁrst version of the DHS enterprise architecture consisted of detailees from
          various DHS organizational elements. According to the director of Planning and
          Enterprise Architecture, understafﬁng and inadequate support from the CIO ofﬁce
          resulted in the detailees working overtime each day for several weeks to meet the
          August 1st deadline for developing the enterprise architecture. In May 2004, the
          CIO estimated that his ofﬁce had about 121 contractors and detailees on staff.

          The beneﬁt to having the detailees and contractors on board is that these personnel
          can become familiar with the organization and its systems and can share best
          practices to help foster improvements. In some instances, it is easier to ﬁnd



Page 10        Improvements Needed to DHS’ Information Technology Management Structure
                           subject matter experts within the ranks of detailees and contractors on fairly
                           short notice than to wait for full-time hires. In other instances, the temporary
                           employees may lack the expertise needed to be effective. Another problem is that
                           there is a loss of continuity of services when the detailees or contractors return to
                           their home ofﬁces or are reassigned.

                           In comparison with the DHS CIO resources, the individual components within
                           the department have much larger IT staffs, which they brought with them when
                           they became part of DHS in 2003. Few, if any, are under the purview of the DHS
                           CIO. Some of the individual component IT shops within DHS are proportionately
                           much bigger than the DHS CIO’s ofﬁce. For example, as the Government
                           Accountability Ofﬁce (formerly the General Accounting Ofﬁce) reported in
                           May 2004,7 the CIO organization of the former Federal Emergency Management
                           Agency8 has about 262 permanent employees and approximately 70 temporary
                           (disaster-related) employees. The Transportation Security Administration reports
                           that its CIO organization has roughly 145 employees. The Coast Guard reports
                           that its CIO organization has approximately 140 employees. Together, these three
                           component CIO organizations account for about 600 positions and control about
                           $3.6 billion in ﬁscal year 2004 IT budget and spending.

                           CIO ofﬁcials told the OIG that given their relatively small staff resources they
                           have been “busy putting out ﬁres” in efforts to help get the new department up
                           and running. As a result, they have been hindered in carrying out some of their
                           critical IT management responsibilities. For example, they have not been able to
                           put in place all of the plans to govern IT human capital management across the
                           department. Likewise, they have not been able to institute the central guidance
                           and standards needed for functions such as information security, network
                           management, telecommunications, or web-based applications. Further, the
                           CIO ofﬁce has not had the chance to institute a systems development life cycle
                           methodology or update established IT policies and procedures. Without such
                           up-to-date, documented IT direction, inconsistencies in the department-wide
                           processing environment could occur.

                           To maximize the potential of its limited staff resources and ensure productivity,
                           the CIO uses a matrixed management approach to accomplish IT responsibilities.
                           This means using a variety of support staff, project teams, and working groups.
                           Each of the ﬁve directors in the CIO ofﬁce has a working group with cross-agency

7
  Information Technology: Homeland Security Should Better Balance Need for System Integration Strategy with Spending for New and
Enhanced Systems, U.S. General Accounting Ofﬁce (GAO-04-509, May 21, 2004).
8
  The former Federal Emergency Management Agency now comprises the Emergency Preparedness and Response directorate within DHS.


                Improvements Needed to DHS’ Information Technology Management Structure                                 Page 11
          representation to support efforts in their functional areas regarding enterprise-
          wide programs. The beneﬁt of the matrixed management organization is that
          it integrates various viewpoints, resulting in more cross-agency and thorough
          decision-making.

          One of the component CIOs said that the matrixed approach is patterned after
          a model designed by the former CIO of General Motors Corporation in the late
          1990s. At General Motors, information ofﬁcers were responsible for educating
          the senior management teams on the value of IT, while process information
          ofﬁcers were responsible for identifying common processes and systems across
          business units. Both positions reported directly to the corporate CIO, as well
          as their respective unit executives. This matrixed stafﬁng model helped ensure
          accountability in the large, complex General Motors organization. However, the
          model is not readily applicable to DHS because, whereas the General Motors
          CIO was part of the senior executive team and had signiﬁcant authority over IT
          as well as the business, the DHS CIO is positioned at a lower organizational level
          and does not drive IT department-wide. As one industry CIO observed, an IT
          manager needs business clout−not a “stick,” but power and inﬂuence through top
          leadership buy-in to ensure the ability to accomplish business change.

          DHS Had Discretion in Establishing its IT Organization

          The current IT management structure can be traced back to the Homeland
          Security Act, which authorizes the DHS Secretary to position the CIO
          discretionally within the organization. DHS managers told the OIG that ofﬁcials
          within the White House Ofﬁce of Homeland Security made the decision to have
          the CIO report to the Under Secretary for Management. The Under Secretary for
          Management was in agreement with this reporting relationship.

          The limited CIO ofﬁce stafﬁng dates back to the inception of DHS and is,
          according to senior DHS ofﬁcials, the result of a cap set on overhead expenses
          and staff resources for DHS headquarters. The Management Directorate, as well
          as the Secretary’s ofﬁce, was limited to a total of 800 employees. Of the 800, a
          total of about 65 staff was allotted to the CIO ofﬁce.

          Another contributing factor to the problems with limited staff resources is that all
          employees in the CIO ofﬁce must have at least secret level clearances. Obtaining
          a clearance is a time-consuming process managed by the Ofﬁce of Personnel
          Management and largely beyond DHS control. According to the chief human
          capital ofﬁcer, because of the Ofﬁce of Personnel Management’s backlog of new



Page 12        Improvements Needed to DHS’ Information Technology Management Structure
                 recruits requiring background investigations, it currently takes an average of about
                 250 days to hire an employee.

                 DHS CIO Would Beneﬁt from Greater Organizational Authority
                 and Staff Resources

                 While there is no one way to position a CIO, the best approach is to structure
                 the IT organization to meet the existing need. In our opinion, the decentralized
                 IT model that DHS has chosen is not the appropriate one at this critical time as
                 the department evolves, integrates, and institutionalizes its operations. Senior
                 IT experts said that IT decentralization may be effective in well established
                 organizations with well deﬁned authorities, management reporting relationships,
                 and accountabilities. Senior IT ofﬁcials also indicated that IT decentralization
                 might work in entities that are smaller and relatively easy to control.

                 However, decentralized IT is not effective in a large, complex organization like
                 DHS, which is still working to eliminate duplication, integrate systems, and
                 achieve IT sharing and unity across its 22 legacy agencies. More centralized CIO
                 control is particularly critical at DHS where component missions and objectives
                 are often in conﬂict with one another. A central advocate may be needed to
                 decide amongst them. For example, both the US Citizenship and Immigration
                 Services and the Customs and Border Protection directorates are developing
                 case management systems. The DHS CIO initially opposed acquiring two
                 separate systems with essentially the same functionality, viewing the duplication
                 as a wasteful investment. However, the director of the U.S. Citizenship and
                 Immigration Service overrode the CIO’s intention to make this a shared endeavor.

CIO Does Not Manage IT
Department-wide
                 The deﬁciencies in CIO positioning and authority are exempliﬁed by the
                 fragmented manner in which IT investments are managed across the department.
                 Although federal guidance calls for CIOs to play a key role in managing
                 department-wide IT resources, the DHS CIO has a limited role in the department’s
                 investment review process. It is largely conﬁned to consensus building to
                 manage infrastructure and selected joint or consolidated systems while mission
                 applications and component level IT investments continue to be managed in
                 a decentralized manner. Such oversight limitations hamper CIO progress in




       Improvements Needed to DHS’ Information Technology Management Structure               Page 13
          accomplishing the vision of eliminating redundancies among the legacy IT
          systems and programs at all levels across the department.

          CIO Does Not Oversee All IT Investments

          Federal guidelines give the CIO, in partnership with senior agency executives,
          the responsibility for ensuring effective management of organization-wide IT
          to support agency business and missions. To help carry out this responsibility,
          CIOs are to play a key role in disciplined agency investment review processes for
          selecting, controlling, and evaluating IT investments to help maximize return on
          investment and accomplish mission objectives and results.

          According to these requirements, DHS has taken steps to establish a process for
          its investment decision-making and management. Speciﬁcally, Management
          Directive Policy #1400: Investment Review Process provides guidance for
          reviewing both IT and non-IT investments in the department. DHS’ investments
          are categorized into four levels based on a combination of factors, including
          mission criticality, dollar thresholds, and sponsorship. The levels specify the
          documentation required for the IT investment review, as well as what ofﬁce
          or ofﬁcial within the department’s hierarchy is responsible for making the
          investment approval and oversight decisions.

          However, the CIO does not oversee or control the process for managing IT
          investments at all levels throughout the department. The following ﬁgure
          provides an overview of the DHS investment review process (IRP) and is
          followed by a discussion of the CIO’s role at each investment level.




Page 14        Improvements Needed to DHS’ Information Technology Management Structure
                             Figure 2: Overview of DHS’ Investment Review Process




                                       Major and Mission Critical Investments

                             The CIO is not the principal proponent for Level 1 investments, which are
                             mission critical programs with contract costs over $50 million. Rather, a DHS
                             Investment Review Board (IRB) headed by the Deputy Secretary is responsible
                             for reviewing major, mission-critical investments−both non-IT and IT−at this
                             level. The projects are reviewed for approval and progress, primarily based on
                             “Exhibit 300”9 business case documentation, which is developed for submission
                             to the Ofﬁce of Management and Budget pursuant to the annual budget process.

                             The IRB consists primarily of DHS senior executives from each DHS major
                             component, along with other key ofﬁcials from the ofﬁce of the Under Secretary
                             for Management. The CIO is a voting member of the IRB and, as needed,
                             may be called upon to provide guidance on IT investments to more senior
                             level ofﬁcials. However, the CIO does not have the ﬁnal say in “Level 1” IT
                             decisions. For example, ofﬁcials told the OIG that although the CIO did not
                             recommend continuing with development of a second case management system
                             within Customs and Border Protection, the Deputy Secretary decided to proceed
                             anyway. The CIO’s rationale was that a comparable case management system
                             already under development in CIS could provide the functionality needed for both
                             components.

9
  Exhibit 300s are documents by which project teams can demonstrate to agency management and the Ofﬁce of Management and
Budget that they have employed the disciplines of good project management, represented a strong business case, and met other federal
requirements to deﬁne the proposed cost, schedule, and performance goals for an investment if funding approval is obtained.


                 Improvements Needed to DHS’ Information Technology Management Structure                                       Page 15
          Further, because the CIO does not manage the investment process at “Level 1,” he
          cannot ensure that major IT investment reviews are conducted in a timely manner
          to provide the approvals necessary at key points during a system’s life cycle.
          Financial ofﬁcers are responsible for coordinating meetings of the IRB. Despite
          the amount of money expended on major IT systems and initiatives across the
          department, the IRB has held infrequent meetings to oversee these investments.
          Many of the meetings scheduled have been cancelled or postponed.

          Speciﬁcally, since May 2003, the IRB has scheduled 21 meetings, but postponed
          or canceled 12 of them. Several were related to highly visible IT initiatives
          such as US-VISIT, IT infrastructure, and the SAFECOM project for wireless
          communications to support emergency response. Senior DHS ofﬁcials said the
          IRB delays are due to its high-level membership with competing priorities and
          the fact that the board is just starting out and as yet has no sense of urgency to
          get things done. Financial ofﬁcers attributed the missed meetings to inadequate
          business case information provided by the responsible units to support their
          programs. These ofﬁcials said that it is a major challenge to get DHS components
          to adequately prepare this information in advance for the IRB reviews. Similarly,
          in its feedback on the President’s budget for FY 2005, the Ofﬁce of Management
          and Budget stated that while over half of DHS’ business cases were acceptable,
          continued improvement is still needed.

          Missed milestones due to the IRB meeting cancellations have placed some
          projects at risk. For example, Customs and Border Protection ofﬁcials told the
          OIG that an August 2003 IRB review of the Automated Commercial Environment
          project was repeatedly rescheduled to the point where some parts of the project
          ran out of funding and the project was placed on hold. The project did not get the
          funding it needed to see it through the remainder of the ﬁscal year until the IRB
          met and reviewed the project in December 2003.

                 Signiﬁcant “Level 2” Investments

          The Management Review Council, responsible for “Level 2,” has never met. This
          Level is comprised of signiﬁcant IT initiatives with contract costs from $5 to $50
          million. The Management Review Council is to review high visibility IT and
          non-IT programs that may impact more than one DHS component. These reviews
          are to be based on “Exhibit 300” budget documentation or a subset thereof.
          According to Management Directive #1400, the Council is comprised of the
          CIO, the Chief Financial Ofﬁcer and the Chief Procurement Ofﬁcer. However,




Page 16        Improvements Needed to DHS’ Information Technology Management Structure
                              approval and decision-making authority regarding Level 2 programs rests with the
                              directorate heads and under secretaries for the program’s sponsoring directorate.

                                                  Component-level IT Investments

                              Just as there is no formal reporting relationship between the DHS CIO and the
                              component level CIOs, the DHS CIO also does not control “Level 4” investments.
                              This level is comprised of IT investments for directorates or organizational
                              elements that cost less than $5 million. Rather, senior ofﬁcials in the DHS
                              components have approval authority for these systems investments. The costs
                              for component systems are generally included on the “Exhibit 53” IT budget
                              summaries annually submitted to the Ofﬁce of Management and Budget.10 A
                              number of DHS components also have their own processes for reviewing and
                              managing their IT investments apart from DHS CIO purview. Although the CIO
                              is supposed to review and approve the component’s investment management
                              processes and randomly select “Level 4” investments to ensure compliance with
                              IT review procedures, this is not being done.

                              The DHS CIO may not be aware of all IT systems that are being implemented
                              by components in DHS. DHS ﬁeld ofﬁces have implemented systems that do
                              not comply with CIO standards and requirements. For example, without the
                              DHS CIO’s knowledge, one ofﬁce had implemented a mission critical web-based
                              application without the appropriate investment planning, documentation, and
                              cost estimates. While ﬁnancial management ofﬁcials said that such systems are
                              accounted for in the department’s “Exhibit 53” IT investment portfolio submitted
                              to the Ofﬁce of Management and Budget, only major programs are line items in
                              this document and the system was not included. The application has not been
                              certiﬁed and accredited, although sensitive information on people is stored in the
                              system. A DHS ﬁeld ofﬁce created the application using open source code in a
                              program that is not supported by the component CIO. At one time, the system
                              even used a “.com” web address rather than the required “.gov” web address.

                              This system is not currently on the department’s network. However, given
                              ﬁeld ofﬁce independence, the component CIO believed that this could certainly
                              be done without his or the DHS CIO’s knowledge, posing signiﬁcant security
                              vulnerabilities. Other organizational elements could independently be purchasing
                              systems that may not work together with the overall DHS technical foundation

10
   An exhibit 53s is a roll-up of an agency’s major IT programs to comprise the agency’s IT investment portfolio. This report, submitted to
the Ofﬁce of Management and Budget as part of the federal budget process, provides the basic information that an agency needs to link its
planning, budgeting, acquisition, and management of IT resources.


                 Improvements Needed to DHS’ Information Technology Management Structure                                          Page 17
          and thus not meet DHS mission and business needs or performance objectives.
          Greater central CIO oversight and control would ensure more discipline in
          department-wide IT investment management practices.

                         Joint, Consolidated, or Cross-Cutting IT Investments

          It is at “Level 3” that the CIO has the most responsibility over IT investments.
          “Level 3” programs have annual costs of $1 to $5 million or life cycle costs of
          $5 to $20 million. At this level, the CIO chairs an Enterprise Architecture Board
          (EAB), which is essentially the same body as the CIO Council, transformed
          to constitute the EAB when an investment decision must be made. The EAB
          is comprised of component-level CIOs and chief ﬁnancial ofﬁcer and chief
          procurement ofﬁcer designees. According to Management Directive #1400, the
          EAB should include crosscutting business line managers; however, these ofﬁcials
          only attend meetings on an as needed basis. Rather, the EAB generally includes
          only IT personnel and, as such, does not provide a venue for including business
          perspectives on IT directions.

          Management Directive #1400 does not explain the EAB’s role or its
          transformation from the CIO Council. Because there are no minutes from EAB
          meetings, the OIG was unable to verify EAB proceedings or results. However,
          Management Directive #1400 states that the board supports department-wide
          strategic planning and helps establish strategic guidance. The EAB also reviews
          and approves individual IT system investments, such as US-VISIT. The CIO uses
          the board to identify joint or consolidated IT programs that can help integrate and
          create efﬁciencies across the department.

          The board is responsible for reviewing programs to ensure alignment with
          the department’s enterprise architecture. Version one of architecture, was
          released in September 2003. In addition, in the context of the EAB, the CIO in
          conjunction with the chief ﬁnancial ofﬁcer established the “eMerge2” program
          as an enterprise architecture pilot program. The objectives of the program are to
          transform DHS business and ﬁnancial policies, processes, and applications and
          eliminate disparate, redundant, and non-integrated systems. The requirements
          and architecture development contracts for the “eMerge2” program were awarded
          in December 2003. The CIO’s director of Planning and Enterprise Architecture
          has been assigned as the contracting ofﬁcer representative and is responsible for
          administering and monitoring the “eMerge2” program to ensure compliance with
          the contract terms and conditions.




Page 18        Improvements Needed to DHS’ Information Technology Management Structure
          Although the CIO is responsible for implementing improvements throughout the
          department’s IT infrastructure, the CIO actually owns relatively little of these
          resources. The CIO basically controls the DHS headquarters infrastructure, which
          includes the backbone and some of the crosscutting IT programs and services.
          For example, the CIO controls the routers, switches, and hubs comprising the
          department-wide network. His ofﬁce outlines the policies and guidance related to
          IT infrastructure products and services, and provides operational support to DHS
          headquarters elements in this regard. The ofﬁce also administers the department-
          wide security program, providing the tools and support to safeguard and report
          on security of IT assets in line with FISMA requirements. Further, his ofﬁce is
          responsible for web portal capability and delivery of information through the
          DHS Intranet and Internet sites. The CIO does not own any of the many mission
          and administrative systems and facilities within the various components, such as
          mission-speciﬁc applications and data centers. The IT infrastructure managed by
          the CIO amounts to only $185 million of the department’s total $4 billion budget
          for information technology.

          CIO Relies on CIO Council Forum to Accomplish IT Objectives

          Given that the CIO does not control much of the department’s IT programs,
          he relies on communication, cooperation, and coordination in the context of
          the CIO Council to work towards achieving the objectives of a uniﬁed DHS
          IT infrastructure. The CIO Council is comprised of the CIOs from each DHS
          component, ex ofﬁcio representatives from General Counsel, the Chief Financial
          Ofﬁcer’s Council, the Ofﬁce of the CIO, and the Executive Procurement
          Executive Council. The CIO Council was chartered to develop, promulgate,
          implement, and manage a vision and direction for information resources and
          telecommunications management within DHS. The council is a forum for
          discussing and coordinating IT systems and programs that are new or have
          potential for DHS-wide impact. Council members also advise the CIO on policy
          and ﬁscal issues having a direct bearing on IT and the abilities of the components
          to perform their individual and collective missions. The CIO uses the Council
          as a means to gain cooperation among DHS components regarding opportunities
          for IT consolidation, common infrastructure services, and information sharing
          with other agencies. Such cooperation is especially critical when component
          leadership initially may not want to give up resources to support department-wide
          IT initiatives.

          However, rather than an authoritative and strategic decision-making body, the
          CIO Council has evolved into a large information-reporting session where the



Improvements Needed to DHS’ Information Technology Management Structure              Page 19
                    individual CIOs share updates about the IT activities within their organizations.
                    One IT ofﬁcial described the Council as a free ﬂowing, unstructured body that
                    lacks focus to move beyond talking about IT issues. This is reﬂected in CIO
                    Council meeting minutes where “decision items” are really administrative action
                    items for future meetings rather than productive outcomes. Further, once the
                    decision items have been completed, there is little documentation of the outcomes
                    or deliverables in subsequent meeting minutes.

                    The CIO Council is supported by a multitude of committees, working groups,
                    and boards that were established in an ad hoc manner and often have unclear or
                    overlapping functions, creating a confusing IT governance environment. For
                    example, one IT manager indicated that each division within the CIO ofﬁce
                    has its own working group that meets periodically with people throughout the
                    department to keep everyone abreast of new IT developments and opportunities
                    for cross-functional solutions. Nonetheless, IT ofﬁcials said that they plan to
                    create still other working groups to address IT issues as they arise. Another
                    IT ofﬁcial indicated that a Technical Review Board was created on paper, but
                    has never held a meeting. Similarly, per CIO Council minutes, a Web Services
                    Board has been has been awaiting a charter for over two months, but it has never
                    come to fruition. The DHS CIO estimated that more than 40 different IT working
                    groups have been established. However, his ofﬁce could not provide the OIG
                    with a complete list of the many different forums. In February 2004, the DHS
                    CIO discussed plans to disband some of these working groups and consolidate the
                    remainder into centers of excellence.

          Opportunities Exist for CIO
          Management Structure Improvements

                    A number of government agencies successfully aligned their CIO management
                    structure according to relevant IT legislation. These successful CIO organizations
                    provide useful practices and lessons learned that DHS could adopt to help
                    improve its IT management. Their practices might also be considered and applied
                    as part of efforts underway to transition DHS to a more centralized IT support
                    operation.

                    Examples of Effective Federal CIO Organizations

                    The OIG met with senior IT ofﬁcials from three other agencies to discuss how,
                    based on federal guidelines, they structured their IT organizations to effectively
                    support mission needs. Speciﬁcally, the OIG visited the CIOs of the Veterans


Page 20                  Improvements Needed to DHS’ Information Technology Management Structure
          Administration (VA), Federal Deposit Insurance Corporation (FDIC), and the
          Department of Energy (Energy), organizations that are either comparable to DHS
          in terms of complexity or were recommended by the DHS ofﬁcials as models
          for potential review. The CIOs at these organizations told the OIG about the IT
          authority afforded them via organizational positioning and reporting relationships,
          supporting ofﬁce structures, and control of IT investment review processes. The
          following table summarizes this information in comparison with the DHS CIO
          management structure.

          Table 1: Comparison of DHS and Leading CIO Organizations

                          CIO                           IT         IT
                        Controls                    Full-time   Contract  FY 04
                Reports Senior IT                     Staff      Staff   $ Total   CIO      CIO
                 to the Managers  Total              Under       Under      IT   Controls Controls
                Agency Agency- Agency                 CIO         CIO    Budget All IT      IRP
          AGENCY Head     wide    Staff              Control    Control (Billion) Assets Process
             DHS       No       No       180,000           49        121    4.0 B   No      No
           Energy     Yes       Yes       14,500          113        207    2.7 B   Yes     Yes
            FDIC       No       Yes         5,305        400         540   .219 B   Yes     Yes
              VA      Yes       Yes      211,764         300         550    1.5 B   Yes     Yes


          Unlike DHS, two of the three other federal CIOs report directly to their agency
          heads. While the CIO of the FDIC reports to the chief operating ofﬁcer rather
          than the chairman, the CIO nonetheless attends the chairman’s meetings and can
          directly advise and inﬂuence this ofﬁcial on agency-wide IT matters. Further, the
          other CIOs have authority over component IT managers and all IT assets within
          their organizations. This is not so at DHS. Additionally, IT staff under the DHS
          CIO’s control are signiﬁcantly fewer than at the other agencies. For example, the
          CIO at the VA, which is most comparable in size and budget to DHS, has 300 IT
          staff while the DHS CIO only has 49. The following case studies provide more
          details on the individual CIO organizations studied.

                   Energy CIO

          The CIO at the Department of Energy reports directly to the Secretary and Deputy
          Secretary, with the ability to provide each with technical advice−a critical aspect
          of the CIO function. The CIO is also a member of the executive management
          team−a peer to the Under Secretaries, the Chief Financial Ofﬁcer, and other
          senior program ofﬁcials from component organizations. As such, the CIO has the
          authority and control needed to strategically manage IT across the department.



Improvements Needed to DHS’ Information Technology Management Structure                      Page 21
          The CIO partners closely with the Chief Financial Ofﬁcer on initiatives such as
          electronic government and is a member of key advisory boards and committees.
          Previously, the Energy CIO was positioned in different ofﬁces within the
          department’s organizational structure, including the human resources, and
          management and budget ofﬁces. However, the incumbent believes that the CIO’s
          current reporting relationships are highly effective and in line with Clinger-Cohen
          Act requirements as well as leading agency practices.

          The Energy CIO has the resources and commitment needed to support the
          department’s IT environment. Speciﬁcally, the Energy CIO has a deputy CIO,
          ﬁve associate CIOs, 113 full-time staff, and 207 contractors to support her.
          Collectively, they are providing IT support to the department’s 14,500 employees.
          To ensure that department-wide needs are adequately represented, the Energy
          CIO works with associate CIOs from the various component organizations who
          serve as liaisons to their respective business and program units regarding major
          IT initiatives. These liaisons do not report directly to the CIO. However, because
          the Energy CIO is an equal partner with the Under Secretaries responsible for
          the components, the CIO can oversee and provide input and technical advice
          regarding component IT operations.

          The Energy CIO has oversight of all IT investments and has instituted
          mechanisms to ensure the effective application of technology to help carry out the
          agency’s missions and business. For example, the CIO developed an IT Strategic
          Plan aligned with the department’s overarching strategic business plan. In
          addition, the CIO is responsible for creating all policies and procedures regarding
          IT issues. The Energy CIO also has developed an enterprise architecture and
          standards for guiding IT investments and modernization initiatives, and ensures
          that they support the agency plan. The architecture will be used to help break
          down some of the IT stove pipes that still exist in the organization. Currently, the
          CIO is conducting a study to inventory all IT assets to determine which can be
          consolidated and possibly contracted out.

          The Energy CIO is a major player in the department’s capital planning and
          investment control processes. In the context of these review processes, the CIO
          can ensure that department-wide IT investments are aligned with IT strategies,
          policies, and architectures and meet performance expectations. The CIO co-
          chairs a Technical Review Board that serves to guide and oversee IT investment
          initiatives throughout the department, which uses a balanced scorecard approach
          to measure IT performance. The CIO has instituted about 30 management
          directives to support IT planning and investment control processes. For Example,



Page 22        Improvements Needed to DHS’ Information Technology Management Structure
          investments are presented to a Capital Review Board−the ultimate investment
          decision-making body within the department, chaired by the Deputy Secretary.
          The review board is responsible for a range of strategic management and
          investment decisions regarding all types of programs, including IT. As a voting
          member of the Capital Review Board along with all other department executives,
          the CIO has been able to strategically align IT programs to support department-
          wide needs. Committed to IT success, the Secretary and the Deputy Secretary
          have also established a committee to monitor performance in areas such as
          cyber security and e-government to improve Energy’s grade on the Ofﬁce of
          Management and Budget’s scorecard for IT.

                  FDIC CIO

          The FDIC CIO does not report directly to the chairman for day-to-day matters,
          but reports to the Chief Operating Ofﬁcer directly under the Chairman. Despite
          this reporting structure, the CIO’s authority is not diminished because he has
          direct access to and meets routinely with executive-level decision makers. For
          example, the CIO attends all of the FDIC Chairman’s senior staff meetings and
          has the opportunity to inﬂuence the chairman on agency-wide IT initiatives. In
          addition, the Chairman provides input to the CIO’s performance appraisal and
          how CIO activities will be measured to gauge performance. As such, the CIO is
          considered a member of the senior executive team, actively participating in and
          helping to guide all IT investment decision-making.

          The FDIC CIO’s ofﬁce is centrally organized, with three deputy CIOs heading an
          IT division of approximately 400 federal employees and up to 540 contractors.
          Collectively, they provide all IT support to the agency’s approximately 5,300
          employees, from IT planning to systems acquisition to help desk support for
          headquarters, including national infrastructure support. To manage the IT
          organization, the CIO ofﬁce holds regular brieﬁngs with agency division directors
          to review program status and monitor progress. In addition, the CIO recently
          established and chairs an internal agency CIO Council that includes senior level
          business ofﬁce executives, and serves as an advisory body to the CIO. The CIO
          Council meetings establish the agency IT plan and strategies, and ensure that
          business entities support IT decisions and that, in turn, IT is applied effectively to
          meet business needs.

          The CIO also uses the CIO Council meetings to discuss and deﬁne IT planning
          strategies. Key outputs from the council consist of the IT strategic plan, which
          outlines IT goals and strategies as they align with the agency business goals



Improvements Needed to DHS’ Information Technology Management Structure                 Page 23
          and mission. With the help of the CIO Council, the CIO is currently creating a
          strategic road map to ensure that all systems ﬁt into the common infrastructure.
          The agency is updating its system development life cycle methodology, which
          will form part of a more consistent project management approach. Further, the
          CIO is responsible for developing all IT policies and procedures, using the CIO
          Council as a mechanism to solicit opinions and gain agency buy-in on these
          documents.

          The CIO has oversight over all IT investment initiatives and has put in place
          reporting mechanisms for ensuring the effective application of technology to help
          carry out the agency’s business mission. The CIO and Chief Financial Ofﬁcer
          co-chair the corporation’s capital review investment committee, which considers,
          approves and monitors all major agency capital projects. The committee reviews
          business cases and budgets for each IT initiative. For example, when funding
          or contracts are needed for a project, the request must be taken to the committee
          for approval. The capital investment review committee reports quarterly to the
          FDIC board of directors on how IT initiatives are performing, thus ensuring that
          milestones are met.

                 VA CIO

          At VA, the CIO reports to the Secretary−a position which affords the ofﬁcer the
          opportunity to provide IT technical and investment management advice at the
          most senior level within the department. The CIO is a member of the senior
          management team and a number of different boards and committees within the
          department as well, giving him the opportunity to build relationships and discuss
          IT initiatives with peers and line managers from three large VA components: the
          Veterans Beneﬁt Administration, the Veterans Health Administration, and the
          National Cemetery Administration.

          Previously, VA was a decentralized organization, but has since moved to a
          more IT centralized management structure that includes clear accountability
          and performance monitoring. Speciﬁcally, IT professionals in the ﬁeld report
          to both the ofﬁce of the CIO and their respective facility directors, making
          them accountable to both IT and the business for their work. While the CIO
          ofﬁce develops the IT employees’ performance appraisals, the facility directors
          provide input to these appraisals. Service level agreements and memoranda
          of understanding govern these reporting relationships. The new structure gives
          the CIO the authority and resources needed to manage IT systems and support
          operations at all hospitals and facilities across the VA.



Page 24        Improvements Needed to DHS’ Information Technology Management Structure
          The CIO is supported by three deputy CIOs, four division directors, and 7,000
          technical specialists to assist in carrying out department-wide IT responsibilities.
          The CIO’s IT budget is $1.5 billion per year, excluding another $1.5 billion
          allotted for research and development. CIO responsibilities include IT strategic
          planning, budgeting, investment management, policy and standard setting,
          network security, telecommunications management, and enterprise architecture
          development for the entire department. The CIO ofﬁce spent 100 days
          deliberating with a working group of representatives from across the department
          to reach common ground and produce the ﬁrst version of the architecture; they are
          currently developing the third version of the document.

          The CIO heads an IT investment board which brings together senior managers
          from across the department to discuss IT initiatives and make investment
          decisions. IT investment decisions are subsequently submitted to a senior
          management council for review, and then on to the Deputy Secretary. The Deputy
          Secretary makes the ﬁnal investment recommendations to the Secretary who is
          the ultimate decision-making authority. When investment decisions are time-
          critical, the VA CIO, as a member of the senior management team, has the option
          to go directly to the Secretary. The CIO said that this investment process is highly
          effective, as evidenced by the fact that for FY 2005, for the ﬁrst time, the Ofﬁce
          of Management and Budget approved all of the department’s business cases for IT
          investments upon initial submission.

          DHS Plans for IT Management Centralization

          Currently, there are plans under consideration in DHS that, if implemented,
          could signiﬁcantly affect IT and address many of the concerns raised in this
          report. Speciﬁcally, on September 12, 2003, the Secretary issued a memorandum
          to DHS senior leadership announcing his intention to consolidate and integrate
          DHS-wide support functions, including the Ofﬁce of General Counsel, Human
          Capital Services, Administrative Services, Procurement Services, Budget and
          Finance Services, and Information Technology. To comply with the Secretary’s
          memorandum, the Under Secretary for Management drafted a decision
          memorandum outlining possible solutions to consolidating all directorates
          under her purview. As part of the decision memorandum, the Under Secretary
          solicited information from each senior manager regarding ways to centralize their
          respective ofﬁces.

          Together, the DHS CIO and the CIO Council have determined that centralization
          is necessary for the effective delivery of infrastructure and IT services. In



Improvements Needed to DHS’ Information Technology Management Structure               Page 25
          response to the Under Secretary’s request for information, the CIO outlined a draft
          transition strategy, endorsed by the CIO Council, that serves as an attachment to
          the decision memorandum, discussing a service delivery model for all IT services
          customized to meet the mission needs of the DHS legacy agencies. The draft plan
          includes a timeline for all centralization functions to be completed within 100
          days of initial implementation.

          Under the transition plan, the DHS CIO would manage the IT infrastructure (i.e.,
          local and wide area networks, telecommunications, applications server hosting,
          and collaboration services) and operations (help desk, network operations center,
          data centers, and continuity of operations). All support services personnel would
          be transferred to report directly to the DHS CIO. A CIO within Management
          would be responsible for enterprise applications related to human resources,
          ﬁnancial, and administrative functions. Component CIOs would continue to
          manage mission applications and provide IT services and support for their
          respective component operations, with additional oversight by the DHS CIO
          to ensure that departmental IT goals and objectives are met. Mission support
          personnel would have a dual reporting relationship to both the DHS CIO and the
          mission leadership.

          Furthermore, the Chief Information Security Ofﬁcer would manage IT security
          policy and operations for the DHS CIO. Individuals and contracts responsible
          for supporting delivery of the IT infrastructure and security services would
          be reassigned to the respective DHS CIO ofﬁce infrastructure and security
          organizations. In addition, the ofﬁce of the CIO would have the authority to
          appoint business representatives to each component to ensure that mission
          requirements are well served by the new service delivery model.

          The CIO Council plays a major part in the draft transition plan as well. The CIO
          Council−guided by the DHS enterprise architecture, the IRB, and federal laws
          such as the Clinger-Cohen Act and FISMA−would provide the decision authority
          for policy issues affecting the IT function. As chair of the CIO Council, the DHS
          CIO would have the ﬁnal authority and responsibility for meeting IT missions
          and objectives. The CIO Council would have the authority to create IT centers of
          excellence, comprised of IT specialists from the various directorates. The ofﬁce
          of the CIO would manage the centers as a means of delivering DHS-wide IT
          capabilities and resources.

          The tasks outlined above will take some time to plan and accomplish. However,
          once in place, all IT resources and assets would be under the control of the DHS



Page 26        Improvements Needed to DHS’ Information Technology Management Structure
                 CIO. Although there are many obstacles to overcome, the plan is expected
                 to result in signiﬁcant cost savings and greater consistency and efﬁciency
                 by eliminating wasteful duplication, streamlining operation, and increasing
                 accountability. In addition, the consolidations would help eliminate existing
                 organizational stovepipes and help build a department culture that is vital to the
                 long-term success of the agency.

Recommendations
                 The OIG recommends that, in keeping with legislative requirements and effective
                 practices of other federal IT organizations, the Deputy Secretary:

                      1.   Implement plans for centralizing IT support services.

                      2.   Reposition the CIO to report directly to the Ofﬁce of the Deputy
                           Secretary, thereby providing the CIO with the authority and the ability
                           to inﬂuence senior executive decisions concerning department-wide IT
                           investments and strategies.

                      3.   Document and communicate the roles of component level CIOs,
                           including their dual reporting relationships to the DHS CIO and heads
                           of their respective DHS organizations, thereby ensuring their support
                           for and alignment with central policies, standards, and strategies for
                           consolidating and integrating the department’s IT infrastructure as well as
                           mission and business objectives.

                      4.   Provide the DHS CIO ofﬁce with the staff resources necessary to
                           facilitate accomplishment of department-wide IT consolidation objectives
                           and supporting initiatives, including IT planning; policy and standards
                           formation; enterprise architecture development; network management;
                           information assurance; and, technical, business and administrative
                           support.

                      5.   Assign the CIO a key role in all levels of the department’s investment
                           review process to ensure, guide, and document timely and effective IT
                           investment decisions to support accomplishment of department-wide
                           business objectives.




       Improvements Needed to DHS’ Information Technology Management Structure                Page 27
Management Comments and OIG Evaluation
             We obtained written comments on a draft of this report from the Deputy Secretary.
             We have incorporated the comments where appropriate and included a copy of the
             comments in their entirety at Appendix B.

             The Deputy Secretary concurred with Recommendations 1 and 3. Speciﬁcally,
             with regard to Recommendation 1, the Deputy Secretary said that the department
             would review further the Secretary’s September 12, 2003, memorandum reﬂecting
             the intent to consolidate and integrate DHS-wide support functions, including the
             DHS CIO/CIO council plan for centralization. In response to Recommendation
             3, the Deputy Secretary plans to establish formal reporting relationships between
             the DHS CIO and the CIOs of the major component organizations. The Deputy
             Secretary said that all departmental component CIOs will support the DHS CIO in
             all IT matters without exception, in addition to reporting to their respective agency
             heads. The formalized relationships and descriptions of duties will be published
             in the department’s organization manual; interim guidance will be provided
             as needed. The OIG views these plans as positive steps toward improving
             enterprise-wide IT management and looks forward to their implementation.

             The Deputy Secretary neither concurred nor disagreed with Recommendation 4
             with regard to supplying the DHS CIO Ofﬁce with needed staff resources. The
             Deputy Secretary said that the department is constantly striving to provide optimal
             resources throughout all DHS components and will look for further opportunities
             to re-program critical resources and personnel during the centralization process.
             The OIG appreciates the Deputy Secretary’s intentions to optimize resources
             across DHS components. However, the OIG encourages more immediate
             attention to supplying the CIO ofﬁce with the staff it needs to carry out its
             department-wide responsibilities. The CIO has the enormous task of creating one
             network and one infrastructure to ensure IT connectivity among the department’s
             22 legacy organizations. The OIG is concerned that the small CIO ofﬁce staff of
             49 is woefully inadequate to meet the many challenges of providing IT services,
             technology systems, facilities, and initiatives to support an organization of
             180,000 employees. Without the proper stafﬁng, the Ofﬁce of the CIO has been
             hindered in putting in place the plans, guidance, and standards needed for critical
             functions such as information security and wireless communications.

             For example, based on its annual evaluation of DHS efforts to meet FISMA
             requirements, the OIG reported in September 2003 that none of the components
             had a fully functioning IT security program, only 37 percent of DHS systems had


Page 28           Improvements Needed to DHS’ Information Technology Management Structure
                            been certiﬁed and accredited, and only 39 percent had been assessed for risk.11
                            Further, in June 2004, the OIG reported that DHS had an incomplete wireless
                            security policy and inadequate procedures to implement a DHS Wireless Security
                            Program.12

                            Similarly, the Deputy Secretary neither concurred nor disagreed with
                            Recommendation 5 that the DHS CIO play a greater role in investment decision-
                            making. The Deputy Secretary countered that the CIO is already an integral
                            member at all levels of the IT investment review process. The OIG does not
                            agree. Although the CIO may be a participant at each of the department’s four
                            investment review levels, the CIO does not have the power and authority required
                            by the Clinger-Cohen Act to control all IT investments department-wide. For
                            example, the CIO does not have the ﬁnal authority regarding major, mission
                            critical IT investments at Level 1 within the department. In one instance, the
                            former Deputy Secretary overrode the CIO’s recommendation to discontinue
                            development of a costly, duplicative IT system. Further, the OIG identiﬁed
                            instances where DHS components have developed IT systems without CIO
                            guidance or authorization, creating further duplication and an inefﬁcient use of IT
                            resources.

                            In commenting on Recommendation 5, the Deputy Secretary also recommended
                            adding the CIO as a member of the Level 2 Joint Requirements Council
                            responsible for non-IT issues, thereby providing an element of crosscutting
                            and situational awareness. The OIG views this planned action as a good start
                            toward enhancing the CIO’s involvement in the department’s investment review
                            process and awaits notiﬁcation of its implementation. However, the OIG believes
                            that more needs to be done to assign the CIO a key role at all levels of the
                            department’s investment review process.

                            Finally, the Deputy Secretary did not concur with Recommendation 2 to
                            reposition the CIO to report directly to the Ofﬁce of the Deputy Secretary. The
                            Deputy Secretary said that the current arrangement in which the CIO reports
                            directly to the Under Secretary for Management does not hinder or preclude
                            the CIO from performing all essential job-related requirements. The Deputy
                            Secretary said that the priorities of the Secretary, Deputy Secretary, and DHS are
                            known throughout the chain of command and the responsible individuals have the
                            inherent authority to accomplish these tasks.

11
 OIG-IT-03-02.
12
  Inadequate Security Controls Increase Risks to DHS Wireless Networks, Ofﬁce of Inspector General, Department of Homeland Security,
OIG-04-27, June 2004.


                Improvements Needed to DHS’ Information Technology Management Structure                                     Page 29
          The OIG does not agree with the Deputy Secretary’s response. Federal guidelines
          require that each executive agency position a CIO as a member of the senior
          executive team with the accountability and responsibility to manage IT across
          organizational units. By reporting to the Under Secretary for Management rather
          than to the Secretary, the DHS CIO is not a peer with the DHS Under Secretaries
          and component directors, and, as such, lacks the power and inﬂuence to advise
          senior executives on how best to implement and manage IT across the department.
          Also, as the Deputy Secretary acknowledged in the response to Recommendation
          3, the CIO’s relationships and duties are not clear and need to be formalized and
          published department-wide. Recognizing these limitations, notably the House
          Appropriations Committee proposed, in the department’s FY 2005 appropriations
          bill, to modify the Homeland Security Act to require that the CIO directly report
          to the Secretary of Homeland Security instead of to the Under Secretary for
          Management. Without an additional organizational layer to which the CIO must
          report, the Committee expects DHS IT decisions to be made more expeditiously.




Page 30        Improvements Needed to DHS’ Information Technology Management Structure
                                                              Appendix A
                                                              Purpose, Scope, and Methodology



          As part of its ongoing responsibility to assess the efﬁciency and effectiveness of
          departmental programs and operations, the OIG conducted a review of DHS’ IT
          management structure. The objectives of the review were to determine whether
          the CIO is appropriately positioned and has a sound structure for managing
          department-wide IT systems and programs; and to evaluate how effectively the
          CIO is planning and managing IT investments to meet the department’s current
          and future technology needs.

          To review the effectiveness of DHS’ IT management structure, the OIG
          researched and summarized IT laws and federal guidance applicable to CIO
          organizations and IT infrastructure management. The OIG also researched and
          reviewed background literature and prior Government Accountability Ofﬁce
          reports on ensuring effective IT organizations.

          The OIG then addressed its speciﬁc review objectives. First, the OIG met with
          the DHS CIO and his executive staff to discuss his role, organization, operations,
          and position within the department. The Chief of Staff told the OIG about
          the CIO’s reporting relationships with the Under Secretary for Management
          and other members of the senior executive team. The OIG met with the chief
          procurement ofﬁcer, the chief human resources ofﬁcer, and a chief ﬁnancial
          ofﬁcer representative to discuss working relationships between the CIO and his
          peers within the Management Directorate.

          CIOs of each of the DHS component organizations told the OIG about their
          individual IT management environments, CIO reporting relationships, experiences
          as part of the CIO Council, and coordination with line of business systems
          owners. The OIG also met with former component-level CIOs to discuss their
          experiences in managing IT at DHS, concerns about attrition, and transitions to
          incoming CIO leadership. Budget ofﬁcers and other managers within the Ofﬁce
          of the CIO discussed IT budgeting, acquisition processes, IT and architectural
          planning, performance measurement, and policy and standard setting. Based on
          these interviews, the OIG performed an analysis of whether the CIO effectively
          communicates enterprise-wide IT strategies, goals, and objectives to senior
          managers, peers, IT ofﬁcials, line managers, and subordinates. In addition,
          the OIG met with three federal agencies to conduct a best practices study and
          compare the DHS IT organization to the CIOs at these agencies.

          To address the second objective of assessing the effectiveness of the department’s
          IT investment management, the OIG reviewed directives and other available
          documentation that outlined these processes. The OIG met with budget ofﬁcials



Improvements Needed to DHS’ Information Technology Management Structure                Page 31
Appendix A
Purpose, Scope, and Methodology



                    and chief ﬁnancial ofﬁcer representatives to gain a broader understanding of how
                    these processes work within the department. CIOs, IT ofﬁcials, and program
                    ofﬁcials within the individual component organizations told the OIG about
                    speciﬁc IT investments and how they were controlled within the department.
                    Ofﬁcials within the ofﬁce of the CIO and the budget ofﬁce also provided an
                    overview of the department’s investment review processes and gave the OIG
                    copies of the department’s budget documents for FY 2005. These ofﬁcials told
                    the OIG about the various managers and forums involved in IT investment review
                    and decision-making. Representatives of the various working groups, boards,
                    and committees provided details on how these forums function. Lastly, the OIG
                    examined business cases for selected IT projects to assess coordination and
                    communication between IT managers and business owners.

                    The OIG conducted this review from October 2003 to May 2004 at various
                    DHS headquarters and component organizations, and other federal agencies in
                    the Washington, D.C metro area. The OIG limited its review to unclassiﬁed
                    systems and processes and did not focus on sensitive systems or information. The
                    OIG performed its work according to generally accepted government auditing
                    standards.

                    The prinicipal OIG points of contact for the audit are Frank Deffer, Assistant
                    Inspector General for Information Technology Audits, (202) 254-4100; and
                    Sondra McCauley, Director, Information Management, (202) 254-4212. Major
                    OIG contributors to the audit are identiﬁed in Appendix C.




Page 32                  Improvements Needed to DHS’ Information Technology Management Structure
                                                                      Appendix B
                                                                      Management’s Comments




Improvements Needed to DHS’ Information Technology Management Structure               Page 33
Appendix B
Management’s Comments




Page 34                 Improvements Needed to DHS’ Information Technology Management Structure
                                                                      Appendix B
                                                                      Management’s Comments




Improvements Needed to DHS’ Information Technology Management Structure               Page 35
Appendix C
Major Contributors to This Report



                     Frank Deffer, Assistant Inspector General, Information Technology Audits;
                     Sondra McCauley, Director, Information Management Division;
                     Ann Brooks, IT Audit Manager;
                     Timothy Walton, IT Auditor; and
                     Meghan Parker, IT Auditor.




Page 36                   Improvements Needed to DHS’ Information Technology Management Structure
                                                                          Appendix D
                                                                          Report Distribution



          Department of Homeland Security

          Secretary
          Deputy Secretary
          General Counsel
          Under Secretary for Management
          Chief Information Ofﬁcer
          DHS OIG Liaison
          DHS Public Affairs

          Ofﬁce of Management and Budget

          Homeland Security Bureau Chief
          DHS OIG Budget Examiner

          Congress

          Congressional Oversight and Appropriations Committees, as appropriate




Improvements Needed to DHS’ Information Technology Management Structure               Page 37
Page 38   Improvements Needed to DHS’ Information Technology Management Structure
Additional Information and Copies

To obtain additional copies of this report, call the Ofﬁce of Inspector General (OIG)
at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the OIG
Hotline at 1-800-323-8603; write to Department of Homeland Security, Washington, DC
20528, Attn: Ofﬁce of Inspector General, Investigations Division – Hotline. The OIG
seeks to protect the identity of each writer and caller.
